{

CERTIFICATE OF SERVICE
I hereby certify that on the 28th day of September, 2020, a true and correct
copy of the foregoing Motion for Leave to Proceed In Forma Pauperis was
served by placing a copy thereof in the United States mail, postage prepaid for
three-day delivery, addressed as shown:
Duncan E. Barber
Julie A. Trent
Shapiro Bieging Barber Otteson LLP
7979 E. Tufts Ave., Suite 1600
Denver, CO 80237
Curtis C. Pett
Bruce R. Ellisen
U.S. Department of Justice, Tax Division, Appellate Section
Post Office Box 502
Washington, D.C.
Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
David Lee Smith, Attorney
P.O. Box 26155
Little Rock, Arkansas 72221

/s/94. Jutia J-foo^

CERTIFICATE OF SERVICE
I hereby certify that on the 28th day of September, 2020, a true and correct
copy of the foregoing Petition for a Writ of Certiorari was served by placing a
copy thereof in the United States mail, postage prepaid for three-day delivery,
addressed as shown:
Duncan E. Barber
Julie A. Trent
Shapiro Bieging Barber Otteson LLP
7979 E. Tufts Ave., Suite 1600
Denver, CO 80237
Curtis C. Pett
Bruce R. Ellisen
U.S. Department of Justice, Tax Division, Appellate Section
Post Office Box 502
Washington, D.C.
Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
David Lee Smith, Attorney
P.O. Box 26155
Little Rock, Arkansas 72221

23

